U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 20, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Territory of Guam v. United States, No. 20-382
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 16,
2020. The government’s response is now due, after one extension, on November 25, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including December 9, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0382
TERRITORY OF GUAM
USA

GREGORY GEORGE GARRE
LATHAM & WATKINS LLP
555 11TH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
GREGORY.GARRE@LW.COM

